Mntteb States Court of Appeals
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
December 18, 2020

No. 20-10536
Summary Calendar

Lyle W. Cayce
Clerk

United States of America
Plaintiff—Appellee,
versus
James L. Rudzavice,
Defendant—Appellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:07-CR-138-l
USDC No. 4:20-CV-505

Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
James Rudzavice was convicted of child pornography offenses and
sentenced to 360 months in prison. United States v. Rudzavice, 586 F.3d 310,
312-13 (5th Cir. 2009). He appeals from the district court’s denial of a motion

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

r
No. 20-10536

for compassionate release under 18 U.S.C. § 3582(c)(1)(A), in which he
argued that the threat of COVID-19 in prison constituted extraordinary and
compelling reasons for release. He asserts on appeal that he has already
contracted COVID-19 once and fears reinfection. He also asserts that the
district court was biased, and he seeks a remand for reconsideration by a
different judge.
We need not decide whether the risk of reinfection constitutes an
extraordinary and compelling reason for compassionate release because the
district court did not abuse its discretion by concluding that Rudzavice
remained a danger to the safety of others and that his immediate release after
serving less than half of his sentence would not be in the interest of justice
and would minimize the seriousness of his crimes. See United States v.
Chambliss, 948 F.3d 691, 692-93 (5th Cir. 2020).
The judgment is AFFIRMED. Rudzavice’s motion for appointment
of counsel and all of his other requests for relief are DENIED.

'\t

?

2

A

Case 4:07-cr-00138-A Document 124 Filed 05/19

—_IllLED
IN THE UNITED STATES DISTRICT CjOURT
NORTHERN DISTRICT OF TEXAS
MAY 1 9 2020
FORT WORTH DIVISICN
clerk,

JAMES L. RUDZAVICE,
Movant,

§
§
§
§

vs.

§
§

UNITED STATES OF AMERICA,

§
§
§

Respondent.

u.s. DISTRICTcourt

NO, 4:20~CV~505-A
(NO.

4:07 -cr-138-A(l)

ORDER
Came on for consideration the motion of movant, James L.
Rudzavice, for compassionate release. The court, having
considered the motion, the record, and applicable authorities,
finds that the motion should be denied.
A court may

on motion of the Director of the Bureau of

Prisons or of the defendant after exhausting his administrative
remedies, reduce or modify a term of imprisonment after
considering the factors of 18 U.S.C. § 3553(a), if
"extraordinary and compelling reasons warrant such a reduction."
18 U.S.C. § 3582(c)(1)(A). In commentary, the Sentencing
Guidelines describe "extraordinary and compelling reasons" to
include medical conditions such as terminal illness, serious
deterioration in mental or physical health because of aging, and
family circumstances such as incapacitation of the caregiver of
defendant's minor children. USSG § 1B1.13 (policy statement).
The Fifth Circuit has described these as "compassionate release

Case 4:07-cr-00l38-A Document 124 Filed 05/19/20 Page 2 of 3 PagelD 767
claims.’' United States v. Chambliss, 948 F.3d 691 (5th Cir.
2020}. Although the commentary says that there can be "in the
defendant's case an extraordinary and compelling reason other
than/ or in combination with, the reasons described in
subdivisions (A) through (C)

[medical and family reasons],” the

court is not inclined to believe that such "other reasons"
include the circumstances described by movant here. Movant is
only 57 years old. The Bureau of Prisons is in a much better
position to evaluate movant's situation and determine whether he
is safer where he is now placed than he would be if released.
See United States v. Gileno, No. 3:190cr-161(VAB)-1, 2020 WL
1307108 (D. Conn. Mar. 19, 2020) .
If the court is mistaken and movant has spelled out
extraordinary and compelling reasons for his early release, the
court still would not reduce his sentence. Movant has not shown
that he is not a danger to the safety of others, and the court
is not persuaded, and cannot find, that movant is not a danger
to the safety of any other person or to the community, as
provided in 18 U.S.C. § 3142(g). USSG 1B1.13 (policy statement).
Further, weighing the factors of 18 U.S.C. § 3553(a), the court
is not inclined to grant relief. Movant is serving a sentence of
360 months.

2

Case 4:07-cr-00138-A Document 124 Filed 05/19/20 Page 3 of 3 PagelD768
Immediate release of movant would not be in the interest of
justice, Rather, it would minimize the seriousness of his crimes
and conduct and encourage every other prisoner who could not
obtain relief under 28 U.S.C. § 2255 to seek compassionate
relief for extraordinary and compelling circumstances. See
United States v. Cantu, No. 1:05-CR-458-1, 2019 WL 2498923, at
*5 (S.D. Tex, June 17, 2019){discussing appropriateness of
relief where the determination is narrow and unlikely to have
far'•reaching implications) ; United States v. Never s, No, 16-88,
2019 WL 7281929, at *5-6 (E.D. La, Dec. 27, 2019)(same).
The court ORDERS that movant's motion be, and is hereby,
denied
A

SIGNED May 19, 2020.

J/ffiHN McBRYDE
united State

3

